Docket No. ____
IN THE SUPREME COURT OF THE UNITED STATES
________________________
ADRIAN PARBHUDIAL,
Petitioner,
– against –
JAMIE LaMANNA, Superintendent, Green Haven
Correctional Facility,
Respondent.
________________________

PETITION FOR WRIT OF CERTIORARI
________________________

On Certiorari to the United States Court of Appeals
For the Second Circuit
________________________

JONATHAN I. EDELSTEIN
EDELSTEIN & GROSSMAN
501 Fifth Avenue, Suite 514
New York, NY 10017
Tel.: (212) 871-0571
Fax: (212) 922-2906
Email: jonathan.edelstein.2@gmail.com

Counsel of Record

STATEMENT OF QUESTIONS PRESENTED
1.

Was it an unreasonable application of Strickland v. Washington, 466 U.S.

668 (1984) and its progeny for the state courts, and the habeas courts below, to treat
an attorney’s decision to call or not call witnesses as a per se strategic decision even
where, as here, the witnesses in question were the only ones who could have proven his
innocence and trial counsel admitted that the uncalled witness’s testimony would have
been helpful to the defense?
2.

In a case where the petitioner was accused of shooting at police officers

who broke into his family’s home late at night and had an extremely strong defense of
mistake, did he receive ineffective assistance of counsel where his attorney committed
a cascade of errors that effectively deprived him of that defense, including failure to
secure the availability of critical witnesses, failure to call those witnesses, and failure
to object to prejudicial rulings, and did the state courts unreasonably apply Strickland,
supra, in holding otherwise?

-i-

PARTIES TO THE PROCEEDING
The parties to the proceeding are petitioner Adrian Parbudhial and respondent
Jamie LaManna, Superintendent of Green Haven Correctional Facility.

-ii-

TABLE OF CONTENTS
Statement of Questions Presented . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
Parties to the Proceeding . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
Table of Contents . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii
Table of Authorities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iv
Opinions Below . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . vii
Jurisdictional Statement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . viii
Constitutional Provisions and Statutes at Issue . . . . . . . . . . . . . . . . . . . . . . . . . . . . ix
Statement of Facts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
A.

Proceedings in State Court . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

B.

Proceedings in Federal Court . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

Reasons for Granting the Writ . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
I.

It Is Unreasonable to Treat a Decision Not to
Call Critical Witnesses as a Per Se Strategic
Judgment. Especially Where Trial Counsel
Admits That The Uncalled Witness Would
Have Been Helpful To The Defense . . . . . . . . . . . . . . . . . . . . . 18

II.

It Is Unreasonable to Find Effective Assistance
Where an Attorney Commits Multiple Errors
That Sacrifice His Client’s Only Defense . . . . . . . . . . . . . . . . . 25

Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34
Appendix . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . App. 1
Order of the Second Circuit Court of Appeals dated November
24. 2020 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . App. 1
Memorandum Decision of the United States District Court
for the Northern District of New York entered July 27, 2020 . . . . . . . . App. 2
-iii-

TABLE OF AUTHORITIES
Cases:
Baldayaque v. United States, 338 F.3d 145 (2d Cir. 2003) . . . . . . . . . . . . . . . . . . 13n
Blackburn v. Foltz, 828 F.2d 1177 (6th Cir. 1987) . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Buck v. Davis, 137 S. Ct. 759 (2017) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Campbell v. Reardon, 780 F.3d 752 (7th Cir. 2015) . . . . . . . . . . . . . . . . . . . . . . . . 17
DeLuna v. United States, 308 F.2d 140 (5th Cir. 1962) . . . . . . . . . . . . . . . . . . . . . 27
Diaz v. Kelly, 515 F.3d 149 (2d Cir. 2008) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13n
Eze v. Senkowski, 321 F.3d 110 (2d Cir. 2003) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
Fuller v. Johnson, 114 F.3d 491 (5th Cir. 1997) . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Harris v. Reed, 489 U.S. 255 (1989) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Hayward v. Marshall, 603 F.3d 546 (9th Cir. 2010) . . . . . . . . . . . . . . . . . . . . . . . . 15
Knowles v. Mirzayance, 556 U.S. 111 (2009) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Kyles v. Whitley, 514 U.S. 419 (1995) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
Lambright v. Stewart, 220 F.3d 1022 (9th Cir. 2000) . . . . . . . . . . . . . . . . . . . . . . . 16
Libberton v. Ryan, 583 F.3d 1147 (9th Cir. 2009)

. . . . . . . . . . . . . . . . . . . . . . . 16,17

Lindstadt v. Keane, 239 F.3d 191 (2d Cir. 2001) . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Lucidore v. New York State Div. of Parole, 209 F.3d 107 (2d Cir. 2000) . . . . . . . . 15
McQuiggin v. Perkins, 569 U.S. 383 (2013) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13n
Miller-El v. Cockrell, 537 U.S. 322 (2003) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Mosley v., Atchison, 689 F.3d 838 (7th Cir. 2012) . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Ouber v. Guarino, 293 F.3d 19 (1st Cir. 2002) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
-iv-

Parbhudial v. LaManna, 2020 WL 8513901 (2d Cir. 2020) . . . . . . . . . . . . . . . . . . vii
Parbhudial v. LaManna, 2020 WL 4284178 (N.D.N.Y. 2020) . . . . . . . . . . . . . . . . . vii
Pavel v. Hollins, 261 F.3d 210 (2d Cir. 2001) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
People v. Barnes, 117 A.D.3d 1203 (3d Dept. 2014) . . . . . . . . . . . . . . . . . . . . . . . . 29
People v. De George, 73 N.Y.2d 614 (1989) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30
People v. Garnes, 134 Misc. 2d 39 (Sup. Ct., Queens Co. 1986) . . . . . . . . . . . . . 26,27
People v. Kelly, 38 N.Y.2d 633 (1976) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26,27
People v. Parbhudial, 7 N.Y.3d 967 (2016) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . vii,5
People v. Parbhudial, 135 A.D.3d 978 (N.Y. App. Div. 2016) . . . . . . . . . . . . . . . . vii,5
People v. Sprague, 267 A.D.2d 875, (3d Dept. 1999) . . . . . . . . . . . . . . . . . . . . . . . . 30
Randolph v. Kemna, 276 F.3d 401 (8th Cir. 2002) . . . . . . . . . . . . . . . . . . . . . . . . . 15
Riggs v. Fairman, 399 F.3d 1179 (9th Cir. 2005) . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
Schulz v. Marshall, 528 F. Supp. 2d 77 (E.D.N.Y. 2007),
aff’d, 345 Fed. Appx. 627 (2d Cir. 2009) . . . . . . . . . . . . . . . 20
Slack v. McDaniel, 529 U.S. 473 (2000) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
State v. Scovil, 387 A.2d 413 (N.J. Super. 1978) . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
State v. Walland, 555 So. 2d 478 (La. App. 1989) . . . . . . . . . . . . . . . . . . . . . . . . . . 27
Strickland v. Washington, 466 U.S. 668 (1984) . . . . . . . . . . . . . . . . . . . . . . . . passim
Sullivan v. Fairman, 819 F.2d 1382 (7th Cir.1987) . . . . . . . . . . . . . . . . . . . . . . . . . 17
Towns v. Smith, 395 F.3d 251 (6th Cir. 2005) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
United States v. DiBernardo, 880 F.2d 1216 (11th Cir. 1989) . . . . . . . . . . . . . . . . 27
United States ex. rel. Hampton v. Leibach, 347 F.3d 219 (7th Cir. 2003) . . . . . . 17,34
-v-

Williams v. Taylor, 529 U.S. 362 (2000) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Statutes and Rules:
U.S. Const. Amend. 6 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ix
28 U.S.C. § 1254 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . viii
28 U.S.C. § 2253 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
28 U.S.C. § 2254 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . vii, 19
Fed. R. Evid. 404(b) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
NY Crim. Proc. Law § 200.20 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29,30
NY Crim. Proc. Law § 440.10 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5,13,13n

-vi-

OPINIONS BELOW
Parbhudial v. LaManna,
2020 WL 8513901 (2d Cir. Nov. 24, 2020)
Parbhudial v. LaManna,
2020 WL 4284178 (N.D.N.Y. Jul. 27, 2020)

The decision of the Court of Appeals declined to grant a certificate of
appealability from an order of the United States District Court for the Northern
District of New York (Hon. James K. Singleton, J.), entered July 27, 2020, denying
petitioner Adrian Parbhudial’s petition for habeas relief pursuant to 28 U.S.C. §2254..
In the underlying state court proceedings, petitioner Parbhudial was convicted
of attempted aggravated murder, reckless endangerment in the first degree, criminal
possession of a weapon in the third degree, hindering prosecution in the first degree,
perjury in the third degree, and making an apparently sworn false written statement
in the second degree, and sentenced to a determinate prison term of 40 years. The
state court decision on his direct appeal may be found at People v. Parbhudial, 135
A.D.3d 978 (N.Y. App. Div. 2016), lv. denied, 27 N.Y.3d 967 (2016). The state court
decisions on Parbhudial’s post-conviction motion are unreported.

-vii-

JURISDICTIONAL STATEMENT
This Court has jurisdiction pursuant to 28 U.S.C. § 1254(1) in that this is a
petition for certiorari from a final judgment of the United States Court of Appeals for
the Second Circuit in a habeas corpus case. The instant petition is timely because the
Second Circuit’s decision denying a certificate of appealability was issued on November
24, 2020, less than 150 days prior to the filing of this Petition. There have been no
orders extending the time to petition for certiorari in the instant matter except to the
extent that the time to petition for certiorari has been extended generally by this
Court’s COVID-19 guidance..

-viii-

CONSTITUTIONAL PROVISIONS AND STATUTES AT ISSUE

U.S. Const. Amend. 6
In all criminal prosecutions, the accused shall enjoy the
right to a speedy and public trial, by an impartial jury of the
State and district wherein the crime shall have been
committed, which district shall have been previously
ascertained by law, and to be informed of the nature and
cause of the accusation; to be confronted with the witnesses
against him; to have compulsory process for obtaining
witnesses in his favor, and to have the Assistance of
Counsel for his defence.

-ix-

STATEMENT OF FACTS
One of the most terrifying and dangerous things that can happen to a person is
to have armed strangers burst into his family’s home late at night. Where the armed
strangers are in fact police officers, the terror and danger become even greater. The
resident’s natural response is to defend his home, and in a chaotic situation where he
is forced to make split-second decisions, he will often be unaware that the people
invading his home are the police. This can lead, not only to possible injury or death,
but to the lodging of unjust criminal charges that make no allowances for the chaos and
confusion of the moment.
The nation recently became keenly aware, through the tragic death of Breonna
Taylor, of how sudden police entry to a private home can go wrong. Taylor, an
emergency room technician, was in her boyfriend Kenneth Walker’s apartment in
Louisville, Kentucky, when police officers burst in with a battering ram. Walker,
thinking that the apartment was being invaded, shot at the officers who returned fire;
Taylor was hit by six bullets during the crossfire and was killed. In the wake of the
shootout, Walker – like Parbhudial – was charged with attempted murder, with the
police officers claiming that they announced themselves and knocked on the door before
breaking in.
In Walker’s case, cooler heads fortunately prevailed and the charges were
dropped. No doubt the Louisville prosecutors recognized that ordinary citizens in their
homes are entitled to the same consideration when making split-second decisions as
the police themselves are given, and that in the confusion of a late-night raid, shouts
-1-

of “police” might not be heard or immediately processed. But in petitioner Parbhudial’s
case, the outcome was far more tragic. Even though no more than a few seconds
elapsed between the time Parbhudial’s home was raided and the time he ran
downstairs to face the invaders with a shotgun, and even though no police officers were
injured, he was charged, convicted, and sentenced to 40 years to life in prison, meaning
that he must serve four full decades before being eligible for release. Moreover, the
story of how Parbhudial’s life was taken away is a tragedy of errors in itself, committed
by his counsel, and it is one that this Court has the power to correct.
A.

Proceedings in State Court.

1.

Charges, Trial and Direct Appeal.

In the early hours of February 20, 2010, other members of petitioner's family
shot and killed Ganesh Ramgoolam after an escalating series of incidents - a homicide
in which petitioner is not alleged to have been involved. Less than 48 hours later, on
the evening of February 21, 2010, a SWAT-type Strategic Operations Squad ("SOS")
team of Schenectady police officers, dressed in balaclavas (face masks leaving only the
eyes exposed) and dark clothing and carrying rifles, descended on 935 Maple Avenue
to execute a search warrant. The Parbhudial family was on edge at this time,
anticipating a revenge attack by the Ramgoolam family. It was in this environment
that the SOS team burst through the front door with a ram and entered the house.
At the time of the raid, Adrian Parbhudial was in his bedroom on the second
floor of 935 Maple Avenue. He heard a loud bag, screaming and what sounded like
shattering glass. He grabbed a .12 gauge shotgun, loaded it with number 8 birdshot
-2-

- hardly the choice of ammunition for someone who might believe he is confronting
police officers - and ran downstairs. At the stairwell behind the door to the first-floor
living area, he noticed people dressed in black approximately ten feet away from him
and fired the shotgun at them. Unbeknownst to him, the people at whom he fired were
not members of the Ramgoolam family but Detective Jeremy Pace and Officer Thomas
Kelly. Fortunately, neither Officer Pace nor Officer Kelly was injured.
After realizing that he had shot at police officers, petitioner surrendered and
was apprehended peacefully.
By indictment dated May 3, 2010 ("the First Indictment"), petitioner was
charged with attempted murder in the first degree, reckless endangerment in the first
degree, criminal possession of a weapon in the third degree, hindering prosecution in
the third degree, perjury in the third degree, and making an apparently false written
statement in the second degree. The charges of hindering prosecution, perjury, and
making a false statement related to a statement he made in which he allegedly
disclaimed any knowledge of the Ramgoolam murder.
Subsequently, by separate indictment dated June 25, 2010 ("the Second
Indictment"), petitioner was charged with attempted aggravated murder, attempted
aggravated assault on a police officer, attempted assault in the first degree, and
criminal possession of a weapon in the third degree. On July 1, 2010, at arraignment
on the Second Indictment, the People orally moved to consolidate the two indictments,
which was granted without objection from the defense.
At trial on the consolidated indictments, the People made use of the perjury,
-3-

false statement and hindering prosecution charges of the First Indictment to elicit
extensive evidence concerning the Ramgoolam murder, on the basis that they would
have to prove the existence of the murder as an element of the hindering charge. This
resulted in seven whole days of trial being devoted to the Ramgoolam killing, in which
Adrian Parbhudial was concededly not involved, before any evidence was taken
concerning the events surrounding the February 21, 2010 raid. Indeed, 34 of the 48
witnesses who testified at trial gave testimony that related to the Ramgoolam murder,
not to any event in which petitioner was involved.
The facts surrounding the February 21 raid were, and are, largely undisputed.
Petitioner acknowledged throughout the trial that he shot Detective Pace and Officer
Kelly. His defense was that he did not know that they were police officers but instead
mistakenly believed that he was defending himself and his family against members of
the Ramgoolam family out for revenge. In support of this defense, he elicited evidence
that the raid was a fast-moving, noisy, chaotic event that lasted mere seconds and in
which he could not make out any alleged shouts of "police" or ascertain who had
actually broken into the house.
Nevertheless, the jury convicted petitioner of attempted aggravated murder,
reckless endangerment in the first degree, criminal possession of a weapon in the third
degree, hindering prosecution in the first degree, perjury in the third degree, and
making an apparently sworn false written statement in the second degree. He was
subsequently given the maximum sentence of 40 years to life on the attempted murder
count, together with concurrent sentences on the other counts of conviction.
-4-

Petitioner’s conviction and sentence were affirmed by the New York State
Appellate Division, Third Department on January 7, 2016, see People v. Parbhudial,
135 A.D.3d 978 (3d Dept. 2016), and leave to appeal was denied by the New York Court
of Appeals on March 31, 2016, see People v. Parbhudial, 27 N.Y.3d 967 (2016).

2.

Post-Conviction Motion Practice.

On April 18, 2017, petitioner moved to vacate his conviction pursuant to Section
440.10 of the New York Criminal Procedure Law, on the basis of inter alia ineffective
assistance of counsel.

Petitioner proffered affidavits from Angelene Parbhudial,

Vishan Parbhudial, and Richard Baliraj, who were all in 935 Maple at the time of the
raid and who attested inter alia that the commotion was so great that they could not
tell whether the people invading the house were police officers. In addition, petitioner
presented the affidavit of his wife Nikita Parbhudial, who was present on the second
floor of 935 Maple at the time of the raid and who attested to both the commotion of
the raid and the way in which petitioner and Baliraj reacted. Unlike the other three
witnesses, Nikita was not charged with any crime, but was never called to the stand
by trial attorney Roy Nestler to support petitioner’s defense. Petitioner argued that
Mr. Nestler was ineffective for not calling these witnesses.
Petitioner also made several other claims of ineffective assistance including, as
relevant to this petition, (i) failing to adjourn the trial so that Angelene Parbhudial,
Vishan Parbhudial and Richard Baliraj (who at the time were facing criminal charges
in connection with the Ramgoolam homicide) could be tried first and testify for hte
defense; (ii) failing to object to joinder of the two indictments, resulting in the People
-5-

being able to devote the majority of petitioner’’s trial to the Ramgoolam murder in
which he admittedly took no part; (iii) failing to object to testimony and summation
argument regarding petitioner’s silence when the police questioned his mother in his
presence; (iv) failing to object to extensive testimony that had no purpose other than
to elicit sympathy for Ganesh Ramgoolam; (v) failing to follow up on testimony that one
of the SWAT officers themselves was confused by the fast-moving situation and didn’t
even realize he had been shot; and (vi) failing to object to propensity arguments and
speculation in the prosecutor’s summation.
The state trial court ordered an evidentiary hearing at which attorney Nestler
as well as Nikita Parbhudial (under her new married name of Nikita Koylas), Angelene
Parbhudial, Vishan Parbhudial and Richard Baliraj testified.
Nikita testified that on the evening of the SWAT raid that resulted in petitioner
Parbhudial's arrest, she returned to 935 Maple Avenue from her cousin's house at 13
Eagle. (H.61).1 After arriving at 935 Maple and getting some food, she went to the
room she shared with petitioner on the second floor, and saw defendant in the
second-floor living room playing video games. (H.62). Petitioner went in and out of
their shared room during this period. (H.63). Nikita then heard a loud bang and heard
"screaming as if somebody was dying." (H.63-64).
At that point, she, petitioner, and Richard Baliraj met in the second-floor

Citations to “H.” refer to the transcript of the evidentiary hearing. This
transcript, and any other parts of the record the Court may require, will be provided
upon request.
1

-6-

kitchen (which was between the shared bedroom and the living room) and tried to
figure out what was going on. (H.64). Baliraj said "I think the people might be coming
in." (H.64). He said nothing more about who "the people" were. (H.65). Nikita did not
hear the word "police," and "there was still a lot of screaming and stuff, so [she] didn't
really know what was going on." (H.65). Petitioner "took his gun and told [Ms.
Koylas] to lock the door behind him." (H.65). Nikita heard gunshots but did not see
them or know where they came from. (H.65). Only later, when "everything quieted
down and then someone was calling up in like an authoritative voice," did she look out
the window and learn that the people who had come into the house were police officers.
(H.65-66).
Angelene Parbhudial testified that, the day after Ramgoolam was shot, "family
members came in front of [her] house and told us we were all going to be in body bags."
(H.110, 150-51). She told petitioner about this incident later that day. (H.111). The
following day - Sunday, February 21, 2010 - she was present on the first floor of 935
Maple when she heard a big bang from the front door and then heard "get the fuck on
the ground" and "drop the baby, drop the baby." (H.113). She heard the SWAT team
say that they were police only after they had come all the way from the front door to
the back room where she was hiding in a closet with her baby. (H.114, 158, 159-60,
163-65). She heard another loud bang with all the commotion in the apartment but did
not know where it was coming from. (H.114-15, 159). This was all consistent with her
statement against the police in which she likewise stated that she was terrified
because she didn't know it was the police at first, that she heard "police" after she
-7-

grabbed her baby and went into her sister's closet, and that there had been people with
guns in front of her house the previous night. (H.158, 162-63).
Angelene further stated that when petitioner went to trial, she was still facing
charges, and her attorney told her that it was a "conflict of interest" to testify for
defendant and "it would look bad for [her] because [she] was going to trial next."
(H.116). This was not contradicted by Attorney Nestler, who stated that he was sure
he did speak to the witnesses' attorneys and that he did not recall whether or not the
conversation involved whether the witnesses would testify. (H.15-16).
Vishan Parbhudial testified that, after the Ramgoolam shooting, he was at
Moyston Street until late Saturday. (H.181). The following evening at about 7 p.m.,
he was downstairs when he heard a big bang at the front door, followed by a lot of
people saying "everybody get the F down, everybody get your hands in the air."
(H.181-82). It was "chaotic" and everyone was screaming so he "didn't know if it was
[Ramgoolam's] family or what was going on." (H.183). He never heard them announce
they were police. (H.183). He learned that the SWAT officers were police officers only
when they got close to him and he could see "police" on the back of their vests. (H.183).
From the flash bang when the door burst open to the second bang of the gunshot took
only a couple of seconds. (H.183).
This account is consistent with his contemporaneous statement to the police in
which he likewise stated that he did not know the SWAT team members were police
until they came near the kitchen. (Defendant's Hearing Exhibit 2 at 1).

-8-

Vishan also testified that he discussed testifying at petitioner's trial with his
attorney and that he was advised not to do that because it would be a conflict of
interest. (H.184). Again, Nestler's testimony was that he would have spoken to the
witness' counsel. (H.15-16).
Richard Baliraj testified that he went to Moyston Srreet after the Ganesh
Ramgoolam shooting and stayed there for about a day, then returning to 935 Maple.
(H.215). While he was still at Moyston, he learned from Angelene Parbhudial that the
Ramgoolam family had come to the house and made threats. (H.216).
On the night of the SWAT raid, Baliraj was in his second-floor bedroom at the
front of the house. (H.216-17, 255, 270). As he was getting ready to eat, he heard a
loud bang, got up, looked out the window, and saw seven or more guys outside with a
white van, wearing dark clothing and carrying weapons. (H.217, 270). He believed
these men to be part of the Ramgoolam family so he ran out of his rom, got a weapon,
banged on petitioner’s door and said that there were guys with guns outside.
(H.217-18, 270-71). He went upstairs to the attic and saw petitioner again only after
the police took everyone out of the house. (H.218, 270, 272). He did not hear shots
being fired. (H.272). While in the attic, and not before, he saw a marked cruiser and
realized that the people outside were police officers, and he did as they instructed.
(H.220-21, 223, 253-54, 271).
With the exception of him being on Moyston Street rather than Queens on the
day after the Ramgoolam shooting, which was admittedly a lie (H.215), there is nothing
in Baliraj’s testimony inconsistent with his statement to the police (Defendant's
-9-

Hearing Exhibit 5A) and, as discussed above, his account of warning petitioner in the
police statement because he was never asked (H.262-63), but was also not denied - was
corroborated by Nikita (H.64-65).
Baliraj mentioned to his attorney that he was available to testify for petitioner
if necessary, and the attorney recommended that he not say anything and stay quiet.
(H.222). Baliraj was still facing charges at this time. (H.221).
Notably, Nestler - who testified fully and candidly at the hearing - admitted that
the great majority of errors alleged in the motion were not strategic decisions, and in
fact, admitted that calling Nikita in particular would have furthered his trial strategy.
It is undisputed that Nikita did speak to Mr. Nestler (H.17, 36-37, 66) and told him
what she had seen that night (H.37-38, 66). Although Nestler initially stated that his
reason for not calling Nikita was "trial strategy" (H.18), he then said that the trial
strategy was "to distance myself from [the Ramgoolam] murder" (H.18), which
obviously did not provide any reason to exclude Nikita because she was never charged
with any offense relating to that murder (H.40, 60-61).

Moreover, on

cross-examination, when asked if he recalled why he did not call Nikita as a witness,
Nestler answered "no." (H.37).
And on redirect, not only did Nestler acknowledge that there was no need to
distance Ms. Koylas from "the murder aspect of [the trial]" (H.41), but he agreed that
the central issue at trial was whether defendant knew or should have known that the
SWAT team members were police officers (H.41) and that "another part" of his strategy
was that "[defendant] did not know police officers were coming into this house" (H.52).
-10-

He agreed with the hearing court’s question as to whether his strategy included
"attack[ing] the People's argument that [defendant] knew or should have known."
(H.52). And, when shown Nikita’s statement, testified as follows:
Q.

Okay. And are you aware that – well, I would like you to take a
look at the statement that has been - that is in evidence as
Defendant’s Exhibit 4. And I would like you to take a look at the
bottom of that, of page 1 going into the top of page 2.

A.

(Witness complying) Yes, sir.

Q.

Do you believe a witness who gave that account of the accident
would have been useful to Adrian Parbhudial at trial?

A.

Yes.

(H.44) (emphasis added).
On other matters, Nestler acknowledged that he did not know of pertinent New
York State case law under which petitioner could have sought to have Angelene,
Vishan and Baliraj tried first (H.45-46), and that there would have been no downside
to making a motion to change the order of trials (H.20). He also had no recollection of
why he did or did not make specific objections and/or pursue lines of questioning
(H.25-26).
After the hearing, petitioner’s motion was transferred to another judge for
decision. On August 6, 2018, that judge issued a decision denying the motion. As to
the ground of ineffective assistance based on defendant's failure to call Nikita, the
motion court stated as follows:
Nikita couldn't testify to being in a position where she
would have made similar observations as the defendant
-11-

because she was on the second floor and the defendant went
down to the first floor. She couldn't testify as to where the
defendant was when the police entered, where the
defendant went afterwards, what he saw, or what he heard.
Since Nikita was not in the same area of the house as the
defendant, her testimony would not have been helpful to the
jury. While it is true that at the hearing Mr. Nestler
testified that Nikita's testimony might have been useful, his
opinion is not controlling… After reviewing Nikita's
hearing. testimony, it is clear to the court that trial
counsel's decision not to call her was a reasonable strategy
due to the potential negative impact her testimony could
have had on the defense.
(8/6/18 Decision at 3-4). Notably, the motion court did not specify what "negative
impact" Nikita might have had, nor did it point to anything in her testimony that
might conceivably have damaged the defense.
The court additionally found that the failure to request that Angelene, Vishan
and Richard be tried first was not ineffective because their Fifth Amendment rights
would have continued through appeal, notwithstanding that none of these witnesses
ever appealed their convictions. (Id. at 4). The court stated further that any failure
to call them was justified due to Nestler's strategy of distancing petitioner from those
in his family who had been charged with taking part in the Ramgoolam shooting. (Id.
at 5). As to "the rest of defendant's ineffective assistance claims," the court stated that
defendant had "fail[ed] to demonstrate that even if trial counsel had taken the actions
identified by the defendant that any of them would have been successful" and "there
is no reason to believe that the objections cited by the defendant would have been
sustained by the court or that cross examination would have elicited the answers that
the defendant suggests." (Id. at 4-5).
-12-

Petitioner timely sought leave to appeal to the Appellate Division, Third
Department, which was denied by order dated October 18, 2018.
B.

Proceedings in Federal Court.
On January 2, 2019, petitioner filed a Section 2254 habeas petition in the United

States District Court for the Northern District of New York, which reiterated the
ineffective assistance claim raised in his CPL § 440.10 motion.2

Respondent,

represented by the New York State Attorney General’s office, opposed the motion, and
petitioner replied.
By order entered July 27, 2020, the district court (Hon. James K. Singleton, J.)
denied the petition. (App. 2-16).3 Notably, the district court opined that the decision
to call or not to call certain witnesses was categorically excluded from ineffective
assistance of counsel, stating that “the decision of which witnesses, if any, to call at

Respondent raised an issue as to the timeliness of the petition; however, this
was not the ground of decision in either the district court or the circuit court. To the
extent that any timeliness issue may exist, petitioner submits (i) that he is entitled to
equitable tolling by reason of prior counsel incorrectly informing him as to the number
of days chargeable to the AEDPA statute of limitations that had elapsed as of the time
leave to appeal his CPL § 440;l0 motion was denied, see Baldayaque v. United States,
338 F.3d 145 (2d Cir. 2003) (granting equitable tolling where habeas petitioner was
misinformed by prior counsel), and/or discrepancies in the dates of certain state court
filings, see Diaz v. Kelly, 515 F.3d 149 (2d Cir. 2008); and (ii) that the witnesses who
testified at the hearing, particularly but not exclusively Nikita Koylas nee Parbhudial,
provided clear and convincing proof of his actual innocence thus obviating the statute
of limitations, see McQuiggin v. Perkins, 569 U.S. 383 (2013). In any event, petitioner
submits that the issue of whether the petition was timely and/or the tolling, if any, to
which he is entitled, should be determined in the first instance by the circuit court
and/or district court on remand.
2

3

Citations to “App.” refer to the appendix to this Petition.
-13-

trial is the type of sound trial strategy that cannot be the basis for an ineffective
assistance of counsel claim.” (App. 12) (emphasis added). Alternatively, the court
found that the failure to call these witnesses did not prejudice petitioner because they
did not see him “at the exact time the shooting happened.” (Id.) The court further
opined that, although Nikita’s testimony “might have been marginally helpful” to
Parbhudial, she “contradicted” his statement on whether they were together when the
police entered and thus “left open the possibility that Parbhudial was not on the second
floor as he claimed but rather was the person officers testified they saw on the third
floor attic, watching them as they prepared to enter.” (Id. at 13). But as will be
discussed below, it was undisputed through the testimony of the prosecution’s trial
witnesses - including multiple police officers who recognized Baliraj as the same person
they saw looking out the attic window - that the person on the third floor was not
petitioner but Baliraj.
The district court further stated that Nestler was not ineffective in failing to
adjourn petitioner’s trial until after the trials of Angelene, Vishan and Baliraj because
“trial counsel articulated a rational tactical decision for avoiding testimony from family
members who had bene implicated in the Ramgoolam murder” and because they would
have retained their Fifth Amendment rights pending appeal (id. at 14), again ignoring
the fact that they pled guilty and did not appeal. Finally, the district court found that
there was no basis to believe that objections to joinder, evidentiary matters, or jury
instructions, if made by Nestler, would have succeeded. (Id. at 14-15). The court thus
denied habeas relief. (Id. at 15).
-14-

Petitioner timely sought a Certificate of Appealability (“COA”) from the Second
Circuit Court of Appeals. By order dated November 24, 2020, the Second Circuit
denied the COA, stating that “Appellant has not made a substantial showing of the
denial of a constitutional right.” (App. 1).
REASONS FOR GRANTING THE WRIT
This petition comes before this Court from the Second Circuit’s denial of a COA.
It thus bears emphasis that “[t]he COA inquiry... is not coextensive with a merits
analysis," and "the only question is whether the applicant has shown that jurists of
reason could disagree with the district court's resolution of [her] constitutional claims."
Buck v. Davis, 137 S. Ct. 759, 773 (2017). A COA must issue pursuant to 28 U.S.C. §
2253(c) where the petitioner makes "a substantial showing of the denial of a
constitutional right," which exists where "reasonable jurists could debate whether the
petition should have been resolved in a different manner or the issues presented [are]
adequate to deserve encouragement to proceed further." Slack v. McDaniel, 529 U.S.
473, 483-84 (2000).
The COA standard has been described as "modest," Randolph v. Kemna, 276
F.3d 401, 403 n.1 (8th Cir. 2002), and "lenient," Hayward v. Marshall, 603 F.3d 546,
553 (9th Cir. 2010).

A legal issue need not be clear-cut or obvious to "deserve

encouragement to proceed further," and "[a] substantial showing does not compel a
petitioner to demonstrate that he would prevail on the merits." Lucidore v. New York
State Div. of Parole, 209 F.3d 107, 112 (2d Cir. 2000). Instead, the standard is
designed to weed out "frivolous issues" while "at the same time affording habeas
-15-

petitioners an opportunity to persuade [this Court] through full briefing and argument
of the potential merit of issues that may appear, at first glance, to lack merit."
Lambright v. Stewart, 220 F.3d 1022, 1025 (9th Cir. 2000).
Accordingly, "a court should not decline the application for a [certificate of
appealability] merely because it believes the applicant will not demonstrate an
entitlement to relief." Miller-El v. Cockrell, 537 U.S. 322, 336-37 (2003). All that
petitioner must show is that, under the governing law, more than one result could
plausibly be reached, and indeed, "[a]ny doubt regarding whether to grant a COA is
resolved in favor of the petitioner, and the severity of the penalty may be considered
in making this determination." Fuller v. Johnson, 114 F.3d 491, 495 (5th Cir. 1997).
The circuit court failed to give Parbhudial the benefit of this doubt. Petitioner’s
COA application arose from an underlying clam of ineffective assistance of counsel,
which is judged according to the familiar standard of Strickland v. Washington, 466
U.S. 668 (1984). Under Strickland and its progeny, a defendant who claims that he
was denied the effective assistance of counsel must meet a two-prong test: he must
show both that his attorney fell below accepted professional standards and that he was
prejudiced by his counsel's lapse. See id.
The first prong of the Strickland standard measures counsel's performance
against professional norms existing at the time of the representation. See id. at
688-89. Although counsel's performance is viewed deferentially, see id., at 689-90, this
deference does not extend to errors of omission for which counsel cannot provide any
reasonable strategic or tactical justification. See, e.g., Libberton v. Ryan, 583 F.3d
-16-

1147, 1169 (9th Cir. 2009) (finding that failure to pursue mitigating evidence could not
be justified by any valid strategy).

Indeed, counsel "should not be allowed

automatically to defend his omission simply by raising the shield of 'trial strategy and
tactics.'" Sullivan v. Fairman, 819 F.2d 1382 (7th Cir.1987); see also Campbell v.
Reardon, 780 F.3d 752, 764 (7th Cir. 2015) (decision made after insufficient
investigation or consideration is not the product of reasonable strategy) (collecting
cases).
In order to demonstrate prejudice under the Strickland standard, the defendant
must show a reasonable probability that his counsel's errors affected the outcome of
the trial. See Strickland, 466 U.S. at 686. In Kyles v. Whitley, 514 U.S. 419, 434
(1995), this Court explained that the "reasonable probability" standard is met when the
errors of trial counsel "undermine confidence in the outcome of the trial." In addition,
the Kyles Court further stated that the reasonable probability standard does not
require demonstration by a preponderance of the evidence that counsel's error "would
have resulted ultimately in the defendant's acquittal" and that "[a] defendant need not
demonstrate that after discounting the [errors of counsel], there would not have been
enough left to convict." Id. at 434-35. Indeed, reasonable probability has been
described as a “fairly low threshold,” Riggs v. Fairman, 399 F.3d 1179, 1183 (9th Cir.
2005), which “may be less than fifty percent,” Ouber v. Guarino, 293 F.3d 19, 26 (1st
Cir. 2002), and is indeed satisfied whenever the chances of a different outcome are
“better than negligible,” United States ex. rel. Hampton v. Leibach, 347 F.3d 219, 246
(7th Cir. 2003).
-17-

This was a closely contested case in which, while the historical facts were not in
dispute, petitioner’s knowledge and perspective very much were. He plausibly claimed
that he did not know that the people invading his family’s home were police officers,
and as discussed at the beginning of this Petition, the remarkably similar raid on
Breonna Taylor’s apartment shows how easily such mistakes can happen. This was
a case that could easily have resulted in acquittal – in fact, that would justly have
resulted in acquittal – had evidence of the perspective from the second floor been
presented, had the proper instructions been provided to the jury, and had the
prosecutor not been permitted to spend a week trying the Ramgoolam murder case
before petitioner’s name was ever mentioned. But attorney Nestler, for no good reason,
did not present this evidence and did not make the appropriate objections. Indeed, by
his own admission, even he was unable to articulate strategic justification for the great
majority of his opinions. It was thus clear that Nestler was ineffective, that his
ineffectiveness prejudiced petitioner, that the state courts unreasonably applied
Strickland and its progeny in holding otherwise, and that, at minimum, petitioner’s
habeas claim was sufficiently debatable among jurists of reason that a COA should
have issued.
I.

It Is Unreasonable to Treat a Decision Not to Call Critical Witnesses as a Per
Se Strategic Judgment, Especially Where Trial Counsel Admits That The
Uncalled Witness Would Have Been Helpful To The Defense.
First, it was error – and indeed, an unreasonable application of Strickland and

its progeny – to treat an attorney’s decision not to call a witness as “the type of sound
trial strategy that cannot be the basis for an ineffective assistance of counsel claim.”
-18-

(App. 12) (emphasis added). Neither Strickland nor any other decision of this Court
has ever categorically excluded a particular class of decisions by trial counsel from
forming the basis of an ineffective assistance claim. While, to be sure, Strickland
mandates that an attorney’s strategic decisions be analyzed with deference, and while
the standard of review in the Section 2254 context is “doubly deferential,” Knowles v.
Mirzayance, 556 U.S. 111, 123 (2009), this Court has never held that any particular
type of decision is per se strategic, such that it “cannot” form the basis of an ineffective
assistance claim no matter how unreasonable. To the contrary, Strickland and its
progeny mandate that all acts and omissions by counsel be judged through the same
lens, and that the failure to call a witness, if shown to be unreasonable and prejudicial,
can constitute ineffective assistance no less than any other failure.
For instance, in Williams v. Taylor, 529 U.S. 362, 373 (2000), this Court
considered an ineffective assistance claim based on, inter alia, “failure to contact a
potentially persuasive character witness” who could have testified on the defendant’s
behalf. Reversing the Fourth Circuit, this Court held that Strickland was clearly
established law for AEDPA purposes and that, under Strickland, counsel’s failure to
present evidence that could have mitigated guilt, including the character witness, was
unreasonable and prejudicial. See id. at 394-97. Likewise, in Harris v. Reed, 489 U.S.
255 (1989), this Court reinstated an ineffective assistance claim that hinged on failure
to call alibi witnesses, and while this Court’s decision hinged on waiver, it could easily
have upheld the dismissal of the claim on alternative grounds if it believed that an
attorney’s failure to call a witness was a per se matter of strategy.
-19-

Other habeas courts have likewise held, in cases governed by the AEDPA, that
an unreasonable failure to call a witness can constitute ineffective assistance, and
indeed, have granted habeas relief on such grounds. See, e.g., Lindstadt v. Keane, 239
F.3d 191, 204-05 (2d Cir. 2001); Schulz v. Marshall, 528 F. Supp. 2d 77, 101 (E.D.N.Y.
2007), aff’d, 345 Fed. Appx. 627 (2d Cir. 2009); see also Mosley v., Atchison, 689 F.3d
838 (7th Cir. 2012); Blackburn v. Foltz, 828 F.2d 1177, 1183 (6th Cir. 1987); Towns v.
Smith, 395 F.3d 251, 258-61 (6th Cir. 2005). Indeed, at least one circuit court has held
that “an attorney’s failure to present available exculpatory evidence is ordinarily
deficient unless some cogent tactical or other consideration justified it.” Pavel v.
Hollins, 261 F.3d 210, 220 (2d Cir. 2001) (emphasis added). Thus, both the precedent
of this Court and federal AEDPA jurisprudence in general run directly contrary to the
district court’s conclusion that the failure to call a witness “cannot” possibly be
ineffective assistance.
And that is all the more true where, as here, (i) at least one uncalled witness,
namely Nikita, was absolutely critical, and (ii) the attorney admitted that the
testimony of the witness in question would have been helpful to his client. As
discussed in the Statement of Facts, it is undisputed that the key issue at trial was
whether petitioner Adrian Parbhudial knew, or should have known, that the people
entering his house were police. There was considerable evidence from which a jury
might infer that he did not know and could not reasonably have known, including (a)
the fact that Ganesh Ramgoolam's family had a feud with defendant's family and was
likely to seek revenge for Ramgoolam's death; and (b) the fact the raid happened
-20-

suddenly and with no warning; (c) that he used birdshot, which, to say the least, would
not be the weapon of choice in a deliberate assault against a SWAT team; and (d) that,
by the admission of the SWAT officers, the entire sequence of events from breaching
the door to the gunshot took only 5 to 10 seconds (Tr. 1576, 1612-13). The People
attempted to prove that petitioner knew or should have known who the SWAT team
was by offering the testimony of the officers themselves and people outside the house
who heard shouts of "police," but the People did not call any witnesses who were inside

the house, much less the second floor where defendant was.
Nikita - who was on the second floor with petitioner when the SWAT team
breached the door, and who was in the same room with defendant and Mr. Baliraj
immediately afterward - could have provided the missing perspective from the second
floor, and could have shown the jury that the only sounds audible from petitioner's
vantage point were a loud bang followed by incoherent screaming. Given that Nikita
never heard the word "police" and did not know that the SWAT team members were
police officers until after she looked out the window, a jury could well find that
defendant Parbhudial also had no reason to know who the SWAT officers truly were.
This is especially true given that Nikita also testified to Baliraj saying that he thought
"the people" were coming into the house - a description more likely to connote the
Ramgoolam family than police officers. In other words, Nikita was the witness who
could have proved petitioner’s innocence.
The state courts’ and district court’s quibbles with Nikita’s testimony are not
even remotely to the contrary. The ground cited by the New York State motion court
-21-

– that petitioner was no longer on the second floor when he actually fired the shots is immaterial for at least two reasons. First, petitioner unquestionably was on the
second floor when the SWAT team breached the door, when he met with Baliraj and
Ms. Koylas in the second-floor kitchen, and when Baliraj told him that "the people" had
entered the house. And second, the stairs down which petitioner ran after this
discussion are stairs in which "you have to turn" (H.83) and in which there are "two
turns, you walk down and you turn and then you walk out" (H.84) - i.e., down halfway
to a landing, turn 180 degrees, and then down the rest of the way to the door. Only
for the last fraction of a second would petitioner have been in a position where the
sounds from downstairs were not muffled by a wall. And it is also undisputed that
petitioner fired the shots through a closed, albeit unlatched, door, meaning (a) that he
could not see the officers, and (b) the door, too, was muffling sound. In a split-second
situation like the SWAT raid in this case, there is no basis to infer that petitioner could
have heard and processed the word "police" during the last quarter-second or
half-second of his run down the stairwell.
Notably, Nikita was considerably closer to defendant Parbhudial's vantage point
than the witnesses the People called at trial to support their argument that he did
know or should have known that he was dealing with police officers. Each of those
witnesses was either outside the house or was one of the police officers themselves. If
their testimony was probative of petitioner’s guilt, then Nikita’s testimony, from a
vantage point closer to his, would certainly be probative of his innocence.
The ground cited by the district court – that because of a minor discrepancy
-22-

between Nikita’s and petitioner’s statements concerning exactly where on the second
floor he was at a particular time, a jury might have inferred that he was not on the
second floor at all but was instead the person watching the police from the third floor
– has even less merit. The People's own trial witnesses made clear that the person in
the attic was Richard Baliraj. Officer Sean Clifford testified that he recognized the
person in the attic as the same person he had originally seen looking out the window,
and that this person was Richard Baliraj. (Tr.1245-46). The gun in the attic, near
where Baliraj had been, was a hunting rifle with a scope, not the shotgun that
defendant used. (Tr. 1267). Indeed, at the time Officer Clifford saw Baliraj in the attic
window, defendant was already under arrest and being brought out of the house. (Tr.
1246). Officers Eric Gandrow (Tr. 1425-27), Robert Dashnow (Tr. 1505) and Thomas
Kelly (Tr. 1614-15) further testified that the person in the attic window was not the
defendant and was instead Baliraj.

There is absolutely nothing about Nikita’s

testimony that could lead to another conclusion, and therefore, the district court’s
conclusion that she might have harmed petitioner’s defense if called to the stand was
nothing short of fanciful.4
Thus, Nikita’s testimony would have been nothing but helpful to the defense –
it could not possibly have caused harm. Nor, contrary to the conclusions of the state
courts and the district court, would it have been only “marginally” helpful. Instead,

Moreover, when given the opportunity to cross-examine Nikita at the hearing,
the People did not impeach her account of the night’s events in any meaningful respect,
and in fact, devoted most of their cross-examination to the Ramgoolam murder, in
which neither she nor petitioner were alleged to have been involved.
4

-23-

Nikita’s testimony could have shown, from the perspective of the floor where petitioner
was located when the raid began, that he did not know and could not reasonably have
known that the people breaking into the family home were police officers As discussed
above, we now know from the Breonna Taylor incident exactly how easy it is to make
that mistake, and Nikita could have proven beyond doubt that petitioner’s actions that
night were a mistake, not some kind of insane kamikaze assault on a SWAT team with
Number 8 birdshot.
And as the final coup de grace, attorney Nestler effectively admitted that he
should have called Nikita. As discussed above, Nestler initially stated in conclusory
terms that his reason for not calling Nikita was “trial strategy” (H.18), but then
admitted that the only strategic justification he could articulate – disassociating
petitioner from the Ramgoolam murder (H.18) – didn’t even apply to Nikita because
she was never charged in that murder or accused of participating in it (H.40, 60-61).
On cross-examination, when asked if he recalled why he didn’t call Nikita as a witness,
he said “no.” (H.37). And then, on redirect, he admitted that the testimony Nikita
would have given at trial, as reflected in her statement to the police, would have helped
his trial strategy by showing that petitioner could not have known that the people
breaking in downstairs were policemen. (H.41, 44, 52).
Thus, the bottom line in this case is that not only was Nikita a critical – possibly

the critical – witness for the defense, but Nestler admitted that there was no genuine
strategic reason not to call her and that she would instead have been helpful to his
strategy. Under these circumstances, it is not only erroneous but unreasonable to hold
-24-

that failing to call Nikita was a per se strategic decision that categorically cannot
constitute ineffective assistance of counsel. This Court should grant certiorari to
review this aspect of the decisions below and to make clear that (i) there are no acts or
omissions by counsel that are categorically excluded from forming the basis of an
ineffective assistance claim; and (ii) the failure to call a critical defense witness whose
testimony would be highly probative of innocence without significant risk rises to the
level of constitutionally ineffective assistance of counsel.
II.

It Is Unreasonable to Find Effective Assistance Where an Attorney Commits
Multiple Errors That Sacrifice His Client’s Only Defense.
Petitioner submits that, for the reasons set forth in ground I above, Nestler’s

failure to call Nikita as a witness for the defense is, by itself, enough to constitute
ineffective assistance. But as discussed in the Statement of Facts, Nestler committed
many more omissions, all of which impacted petitioner’s only defense. The sum total
of these errors effectively sacrificed petitioner’s claim – his meritorious claim – that
when he ran downstairs and fired his shotgun, he didn’t know that he was confronting
police officers rather than home invaders. The state courts’ rejection of the totality of
petitioner’s ineffective assistance claim was clearly an unreasonable application of
Strickland and its progeny.

First, Nestler failed to bring to the trial court's attention that Richard Baliraj
and Angelene and Vishan Parbhudial had critical exculpatory testimony to give but
could not give it because the charges against them were still pending. Had he done so,
there is plainly a reasonable probability, under governing New York authority, that he

-25-

would have succeeded in deferring petitioner’s trial until after these three witnesses
were tried and became free to testify on his behalf.
In People v. Kelly, 38 N.Y.2d 633, 636 (1976), the New York Court of Appeals
stated that, in determining the order of trials, "priority should be given, among others,
to cases where there is a critical issue involving guilt or innocence, or the possible loss
of witnesses to the prosecution or the defense" (emphasis added). Subsequently, in
People v. Garnes, 134 Misc. 2d 39 (Sup. Ct., Queens Co. 1986), the court found that
Kelly requires co-defendants to be tried first if they would then be able to provide
exculpatory testimony to the moving defendant.
In Garnes, two defendants - Kenneth Garnes and Kwame Brew-Adams - were
charged with drug possession and possession of drug paraphernalia. Garnes sought
a severance, and sought an order directing that Brew-Adams be tried first, so that
Brew-Adams would be available as a witness at his trial. See Garnes, 134 Misc. 2d at
40. The court framed the issue as follows:
In this case we are presented with the problem of the
defendant, Garnes, calling his codefendant, Brew-Adams, as
a witness in his behalf. Garnes contends that if this is done
at a joint trial, Brew-Adams will claim his 5th Amendment
rights. He contends such a result will not only prejudice his
case in the minds of the jurors, but it will also preclude the
introduction into the trial of highly favorable exculpatory
evidence which should be before the trier of the facts.
Id. at 41-42. This is, of course, exactly the same issue that was presented in the
instant case - only the names are changed.
The Garnes court resolved this issue by directing a severance and ordering that

-26-

Brew-Adams' trial take place first. As to the latter question, the court stated:
Since a severance of the trials of the defendants is being
granted pursuant to this order, were the Garnes's case tried
first, the very purpose of the severance would be defeated
since the possibility that the defendant Brew-Adams would
assert his 5th Amendment privilege were he called to testify
would continue to exist. In such an event, the very purpose

of the severance granted by this motion would be frustrated.
However, if the defendant Brew- Adams's case were tried
first, he would then be in a position to testify at the trial of
the codefendant, Garnes, without jeopardizing his position
as regards his trial.
Id. at 43 (emphasis added).

Courts in other States, as well as Federal jurisdictions, have reached similar
conclusions, holding that a defendant's Sixth Amendment right to present the
testimony of a severed co-defendant should weigh heavily in determining the order of
trials. See, e.g., United States v. DiBernardo, 880 F.2d 1216, 1229 (11th Cir. 1989);
DeLuna v. United States, 308 F.2d 140 (5th Cir. 1962); State v. Walland, 555 So. 2d
478 (La. App. 1989); State v. Scovil, 387 A.2d 413 (N.J. Super. 1978).
Here, both the affidavits and the hearing testimony of Angelene Parbhudial,
Vishan Parbhudial, and Richard Baliraj all attest that they had exculpatory testimony
to give concerning petitioner Adrian Parbhudial but, because charges relating to the
Ramgoolam homicide were pending against them and Adrian was scheduled to be tried
first, they would be forced to take the Fifth Amendment if called as witnesses at
defendant's trial. Had Nestler made the trial court aware of this and cited Kelly,
Garnes and the other above-cited authorities, there is plainly a reasonable probability
that he would have succeeded in changing the order of trials so that these witnesses'
exculpatory testimony could be presented to the jury.

Nor does the state motion court's observation that the Fifth Amendment right
continues through appeal - which is the only ground cited by that court for rejecting
this claim of ineffective assistance - to the contrary, because it is undisputed that none
of the three witnesses ever took an appeal.
Notably, at the hearing, Nestler acknowledged that he did not know of the Kelly
and Garnes cases or their holdings (H.45-46), and that there would have been no
downside to making a motion to change the order of trials (H.20). Where, as here, an
attorney's failure to make an application to the court is based on ignorance or oversight
the law rather than trial strategy, it constitutes ineffective assistance. See Eze v.
Senkowski, 321 F.3d 110, 112-13 (2d Cir. 2003).

Second, it was ineffective for Nestler not to object to the consolidation of the
First and Second Indictments. As discussed above, the First Indictment contained
counts relating to alleged obstruction of the Ganesh Ramgoolam murder investigation
while the counts of the Second Indictment related only to the shooting of the two police
officers. The consolidation of the two indictments permitted the People to prove up the
Ramgoolam murder as an element of the obstruction-related charges, thus leading to
day upon day of prejudicial testimony concerning the murder and the crimes of
petitioner’s family members before a single witness testified concerning the raid and
the petitioner’s discharge of a shotgun.
Had Nestler recognized the importance of the obstruction-related charges and
objected to the consolidation of the two indictments, then the People would not have
been able to prove up the existence of the Ramgoolam murder as an element of the
-28-

charges in the Second Indictment. Instead, at a trial of the Second Indictment alone,
the evidence relating to the murder and underlying feud, as well as evidence
concerning possession and use of weapons by other members of defendant's family,
would have been admissible only under what the New York courts refer to as a
Molineux theory (roughly equivalent to Fed. R. Evid. 404(b)). Any such evidence would
have been subject to a limiting instruction and would also have been drastically limited
in volume under state law to prevent a "deluge" of evidence on uncharged acts, see
People v. Barnes, 117 A.D.3d 1203, 1208 (3d Dept. 2014). Moreover, in all likelihood,
crime scene photos of Ramgoolam's body – which were admitted to prove that the
underlying homicide was not self-defense, and which were highly inflammatory and
prejudicial – would not have come in at all. The result would have been a much more
focused trial with a much lesser volume of evidence concerning other people's
uncharged acts which could be and was used to paint defendant as guilty by
association.
Petitioner acknowledges that, on direct appeal, the Appellate Division found no
error in refusing to sever the two indictments after they were consolidated. But this
is all the more reason why Nestler should never have permitted them to be
consolidated in the first place. Once the two indictments were consolidated, severance
could only be granted in the narrow circumstances set forth in NY CPL § 200.20(3) –
which include, inter alia, a requirement that the offenses to be severed be "the same
or similar in law" - but consolidation in the first place is always discretionary and a
court need not grant it even if the two indictments are joinable, see NY CPL §
-29-

200.20(4)-(5). Given that the trial judge expressed concern at various points about
trying the Ramgoolam murder case as part of the case against petitioner, there is
certainly – contrary to the motion court's opinion – a reasonable probability that it
would have denied the People's motion to consolidate had Nestler pointed out that
consolidation would result in exactly that. And since, at the hearing, Nestler stated
that he could not recall whether he considered objecting to such joinder (H.20) and
hence did not articulate any strategic reason for failing to do so, the only possible
conclusion is that he was ineffective.

Third, counsel failed to object to testimony (Tr. 380-91, 415-22) and summation
argument (Tr. 2436-37) regarding defendant's silence when the police questioned his
mother in his presence.

It is well settled in New York that law enforcement

questioning is plainly not a situation in which defendant would naturally be expected
to speak, and therefore, his silence could not be held against him and an objection
would have been sustained. See People v. De George, 73 N.Y.2d 614, 618-19 (1989);
People v. Sprague, 267 A.D.2d 875, 879-80 (3d Dept. 1999). Just as plainly, this
testimony and argument prejudiced petitioner by permitting the jury to impute
damaging admissions by petitioner’s mother to petitioner himself. And, since Nestler
acknowledged at the hearing that he had no recollection of why he did or did not make
specific objections and/or pursue lines of questioning (H.25-26), there is, again, no
strategic justification for his failure to make these objections.

Fourth, counsel failed to object to the extensive testimony of witness Pariag
concerning Ganesh Ramgoolam's family background, personality and character, which
-30-

had no purpose other than to inflame the jury's sympathy for someone defendant was
not even accused of helping to kill. This was the type of testimony that the trial court
precluded when the People tried to elicit it as to other witnesses (Tr. 1599) and hence,
there is a reasonable likelihood that the court would have sustained an objection to Mr.
Pariag's testimony had one been made. And again, Nestler did not recall why he failed
to make objections (H.25-26), meaning that the record contains no strategic
justification for failing to object.

Fifth, Nestler failed to follow up after the SWAT officer testified that he initially
did not even know he was shot (Tr. 1576, 1612-13) to secure an admission (which could
be stressed on summation) that, in split-second situations, even trained officers can
make mistakes about what is going on. Such an admission - which, contrary to the
motion court's opinion, the officer would have to have made in light of his
acknowledgment that it took him a few seconds to realize that he had been shot - would
have been of obvious value to defendant, who was faced with a split-second situation,
did not have the training police officers do, and unlike the officers, did not have an
opportunity to prepare in advance. Again, at the hearing, Nestler was unable to recall
a strategic justification for not following particular lines of questioning (H.25-26).

Sixth, Nestler failed to object to prejudicial summation arguments. To begin
with, the prosecutor argued both propensity and guilt by association, contending that
petitioner and his family were "becoming increasingly violent" during the lead-up to
the raid. (Tr. 2357). This improperly conveyed to the jury that petitioner had a
propensity to commit violence and that he was part of a violent family, both of which
-31-

could not help but color the jury's view of whether he had knowingly fired a shotgun
at police officers. Indeed, the prosecutor returned to the "violent family" theme
throughout later points in his summation, all without an objection from Nestler.
Counsel also failed to object when the prosecutor argued that petitioner might
have seen a SWAT team raid a neighboring house a year earlier and thus knew what
SWAT officers looked like (Tr. 2433-34) which went beyond the bounds of fair comment
given that there was no evidence that petitioner was in a position to see that other raid
or even that he was home at the time. Again, at the hearing, Nestler did not recall any
reason for not objecting to these prejudicial arguments which went far beyond the
bounds of fair comment. (H.25-26).

Seventh and finally, if (as the state courts determined) Richard Baliraj,
Angelene Parbhudial, and/or Vishan Parbhudial were available to be called as
witnesses at trial, it was ineffective assistance not to call them, because, like Nikita,
they too could have corroborated that the sound "police" could not be discerned from
either the first or second floor, that the Ramgoolam family had threatened violence
over the weekend, and that Baliraj had warned defendant that people with guns were
coming in.
The hearing testimony of these three witnesses, as described above in the
Statement of Facts, establishes three things. First, Angelene Parbhudial's testimony
shows that petitioner was aware, prior to the SWAT raid, that the Ramgoolams had
made threats of violence against the Parbhudial family, which would heighten his
apprehension that they rather than the police were the ones breaking into the house.
-32-

Second, Richard Baliraj's testimony corroborates the testimony of Nikita that
defendant was warned that "people" – not police – were breaking into the house.
Third, the testimony of all three witnesses shows that on both the first and second
floors, the events were so chaotic, and took place at such a split-second level, that it
was reasonable for people in the house not to discern that the SWAT officers were in
fact policemen. If the confusion was too great even on the first floor to immediately
discern who had entered the house, it was certainly too great on the second floor where
petitioner was.
All these things, of course, would have compellingly refuted what was already
a far from ironclad case against petitioner. Thus, for the reasons set forth above with
respect to Nikita’s testimony, the testimony of these three witnesses would likewise
result in reasonable probability of a more favorable outcome, and as with Nikita, these
witnesses were key to that part of Nestler's strategy that hinged on showing that
petitioner did not know and should not have known that the SWAT officers were police.
And of course, with the first seven days of trial already having been taken up by
graphic proof of the Ramgoolam murder, any consideration of “distancing” petitioner
from that murder was already a dead letter despite the fact that he was concededly not
involved, and the fact that Angelene, Vishan and Baliraj faced charges relating to that
murder was not a reasonable basis for failing to call them and elicit their favorable and
compelling testimony,
In sum, this series of omissions, especially when combined with Nestler’s failure
to call Nikita to the stand,, was highly prejudicial and not justified by any reasonable
-33-

strategic consideration. The evidence in this case was far from overwhelming, and had
Nikita been called, and had the other errors and omissions not been made, there is
plainly a reasonable - that is, "better than negligible," see Hampton, supra - chance
that petitioner Parbhudial's trial would have resulted in a more favorable outcome.
Indeed, there is a reasonable likelihood that petitioner was convicted of, and is now
spending 40 years in prison for, a "crime" that was in fact nothing more than an honest
mistake in defending his home and family. Even under a "doubly deferential" standard
- indeed, even if there were such a thing as triple deference - it is unreasonable to find
that these errors amounted to anything other than prejudicial error under Strickland
and its progeny. This Court should therefore find that the issues in this case warrant
review and remand.
CONCLUSION

WHEREFORE, in light of the foregoing, this Court should grant certiorari on all
issues raised in this Petition and, upon review, should vacate the judgment against
petitioner and grant such other and further relief as may be appropriate.
Dated:

New York, NY
April 19, 2021
Respectfully Submitted,
EDELSTEIN & GROSS~....__

-34-

Case 20-2741, Document 29, 11/24/2020, 2981124, Page1 of 1

ORDER OF THE SECOND CIRCUIT COURT OF
APPEALS DATED NOV. 24, 2020 [1]
N.D.N.Y.
19-cv-5
Singleton, J.

United States Court of Appeals
FOR THE

SECOND CIRCUIT
_________________

At a stated term of the United States Court of Appeals for the Second
Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 24th day of November, two thousand twenty.
Present:
Guido Calabresi,
Robert A. Katzmann,
Richard J. Sullivan,
Circuit Judges.
_________________________________________________
Adrian Parbhudial,
Petitioner-Appellant,
v.

20-2741

Jamie LaManna, Superintendent, Green Haven
Correctional Facility,
Respondent-Appellee.
_________________________________________________
Appellant moves for a certificate of appealability. Upon due consideration, it is hereby
ORDERED that the motion is DENIED and the appeal is DISMISSED because Appellant has not
“made a substantial showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c); see also
Miller-El v. Cockrell, 537 U.S. 322, 327 (2003).
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

App. 1

Case 9:19-cv-00005-JKS Document 10 Filed 07/27/20 Page 1 of 15

DECISION OF THE U.S. DISTRICT COURT FOR THE
NORTHERN DISTRICT OF N.Y. ENTERED JUL. 27, 2020 [2-16]
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF NEW YORK
ADRIAN PARBHUDIAL,
No. 9:19-cv-00005-JKS
Petitioner,
MEMORANDUM DECISION
vs.
JAMIE LAMANNA, Superintendent,
Green Haven Correctional Facility,
Respondent.

Adrian Parbhudial, a New York state prisoner represented by counsel, filed a Petition for
a Writ of Habeas Corpus with this Court pursuant to 28 U.S.C. § 2254. Parbhudial is in the
custody of the New York State Department of Corrections and Community Supervision
(“DOCCS”) and incarcerated at Green Haven Correctional Facility. Respondent has answered
the Petition, and Parbhudial has replied.
I. BACKGROUND/PRIOR PROCEEDINGS
In May 2010, Parbhudial was charged with attempted murder in the first degree, firstdegree reckless endangerment, third-degree criminal possession of a weapon, first-degree
hindering prosecution, third-degree perjury, and second-degree making an apparently sworn
false statement. The charges stemmed from an incident where police executed a no-knock
search warrant at Parbhudial’s home in search of evidence of the Parbhudial family’s
involvement in the murder of Ganesh Ramgoolam, which had occurred outside the Parbudial
residence on February 20, 2010. After officers used a battering ram to gain entrance to the
residence, Parbhudial fired a round of birdshot from his shotgun at the officers, who were

App. 2

Case 9:19-cv-00005-JKS Document 10 Filed 07/27/20 Page 2 of 15

wearing bullet-proof vests. After the shooting, the officers detained Parbhudial and brought him
to the Schenectady Police Department for questioning. Following a gun residue test, Parbhudial
acknowledged that he was the shooter, but claimed that he believed the officers to be intruders.
Parbhudial was also questioned about the Ramgoolam shooting.
A supplemental indictment in June 2010 charged Parbhudial with attempted aggravated
murder, attempted aggravated assault upon a police officer, first-degree attempted assault, and
third-degree criminal possession of a weapon. The People moved to consolidate the two
indictments, and Parbhudial consented to the consolidation and joined in the motion for joinder
of charges pursuant to New York Criminal Procedure Law (“CPL”) § 200.20(4).1
Roughly seven months after the charges were consolidated, and less than one week prior
to the start of trial, Parbhudial made an oral application to sever the charges of hindering
prosecution, perjury, and making an apparently sworn false statement from the rest of the
charges. County court denied the motion, stating that the “cases were inextricably linked.”
Following a three-week trial at which Parbhudial’s defense was that he believed, at the
time he shot the entering police, that he was protecting his family from vengeful members of the
Ramgoolam family, the jury found Parbhudial guilty of attempted aggravated murder, thirddegree criminal possession of a weapon, first-degree reckless endangerment, first-degree
hindering prosecution, third-degree perjury, and second-degree making an apparently sworn

1

That provision provides that the court may consolidate multiple indictments and
treat them as a single indictment for trial purposes if they are joinable under CPL § 200.20(2)(b),
which mandates that offenses are properly joined “when evidence of a crime charged in one
indictment is material and admissible as evidence of a crime charged in a second.”
2

App. 3

Case 9:19-cv-00005-JKS Document 10 Filed 07/27/20 Page 3 of 15

false written statement. The trial court subsequently sentenced him to an aggregated term of
forty years to life imprisonment.
Through counsel, Parbhudial appealed his conviction, arguing that: 1) the county court
erred in denying his severance motion; 2) his convictions were not based on legally sufficient
evidence; 3) his convictions were against the weight of the evidence; and 4) his sentence is harsh
and excessive. The Appellate Division of the New York Supreme Court unanimously affirmed
his conviction in a reasoned opinion issued on January 7, 2016. People v. Parbhudial, 22
N.Y.S.3d 648, 652 (N.Y. App. Div. 2016). Parbhudial sought leave to appeal in the New York
Court of Appeals, which was summarily denied on March 31, 2016. People v. Parbhudial, 56
N.E.3d 908, 908 (N.Y. 2016).
Again proceeding through counsel, Parbhudial moved pursuant to CPL § 440.10 to
vacate the judgment of conviction, arguing that newly-discovered evidence, consisting of
affidavits from witnesses Angelene Parbhudial (Parbhudial’s sister), Vishan Parbhudial (his
brother), and Richard Baliraj (his sister’s fiancé), supported his actual innocence. Parbhudial
further averred that his trial counsel was ineffective for failing to: 1) seek adjournments until
after the People had the opportunity to prosecute Angelene Parbhudial, Vishan Parbhudial, and
Richard Baliraj for the Ramgoolam shooting so that Parbhudial could call them to testify at trial;
2) object to the court’s instruction on the justification defense; 3) object to the joinder of
charges; and 4) object to the prosecutor’s opening statement, summation, and improper witness
examinations. The county court held an evidentiary hearing at which his trial attorney, his
brother, his sister, his sister’s fiancé, and his ex-wife Nikita Parbhudial testified.

3

App. 4

Case 9:19-cv-00005-JKS Document 10 Filed 07/27/20 Page 4 of 15

At the evidentiary hearing, Parbhudial’s family members testified as to the events related
to the execution of the search warrant. Parbhudial’s brother, sister, and sister’s fiancé testified
that they had been charged with crimes related to the Ramgoolan shooting at the time of
Parbhudial’s trial, but they did not enter their guilty pleas to second-degree gang assault until
after that trial ended.
Trial counsel testified that he did not consider moving to have Parbhudial’s case tried
after the trial of those family members and was not aware of any provision of the CPL that
would have allowed such motion. He further testified that he decided not to call Parbhudial’s
family members at trial because he wanted to distance Parbhudial as much as possible from his
family who had been implicated in the murder, and he did not want to call as witnesses those
individuals that had been charged with the murder. Trial counsel testified that he did not recall
why he made, or did not make, certain objections at trial and did not recall why he did not pursue
certain lines of questioning.
At the conclusion of the hearing and in consideration of post-hearing memoranda of law
by the parties, the county court denied the motion in its entirety. Parbhudial filed a counseled
petition for leave to appeal to the Appellate Division, asking that court to review all claims
unsuccessfully raised in the county court. The Appellate Division denied leave without
comment on October 18, 2018.
Parbhudial then filed the instant counseled Petition for a Writ of Habeas Corpus to this
Court on January 2, 2019. Docket No. 1 (“Petition”); see 28 U.S.C. § 2244(d)(1)(A). Briefing is
now complete, and the Petition is before the undersigned judge for adjudication.

4

App. 5

Case 9:19-cv-00005-JKS Document 10 Filed 07/27/20 Page 5 of 15

II. GROUNDS RAISED
In his counseled Petition before this Court, Parbhudial raises the ineffective assistance of
trial counsel claims that he unsuccessfully raised to the state courts in his motion to vacate the
judgment pursuant to CPL § 440.10. Namely, Parbhudial argues that counsel was ineffective for
failing to: 1) call his ex-wife, Nikita Parbhudial, and mother, Omawattie Parbhudial, to testify at
trial; 2) seek adjournment of his trial until his family members had been prosecuted and were
able to testify at trial; 3) object to the jury instructions on justification; 4) object to the joinder of
charges; and 5) object to the prosecutor’s opening and closing statements and improper
examination.
III. STANDARD OF REVIEW
Under the Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”), 28 U.S.C.
§ 2254(d), this Court cannot grant relief unless the decision of the state court was “contrary to, or
involved an unreasonable application of, clearly established Federal law, as determined by the
Supreme Court of the United States,” § 2254(d)(1), or “was based on an unreasonable
determination of the facts in light of the evidence presented in the State court proceeding,”
§ 2254(d)(2). A state-court decision is contrary to federal law if the state court applies a rule that
contradicts controlling Supreme Court authority or “if the state court confronts a set of facts that
are materially indistinguishable from a decision” of the Supreme Court, but nevertheless arrives
at a different result. Williams v. Taylor, 529 U.S. 362, 406 (2000). The term unreasonable is a
common term in the legal world. The Supreme Court has cautioned, however, that the range of
reasonable judgments may depend in part on the nature of the relevant rule argued to be clearly
established federal law. Yarborough v. Alvarado, 541 U.S. 652, 664 (2004) (“[E]valuating

5

App. 6

Case 9:19-cv-00005-JKS Document 10 Filed 07/27/20 Page 6 of 15

whether a rule application was unreasonable requires considering the rule’s specificity. The
more general the rule, the more leeway courts have in reaching outcomes in case-by-case
determinations.”).
To the extent that the Petition raises issues of the proper application of state law, they are
beyond the purview of this Court in a federal habeas proceeding. See Swarthout v. Cooke, 131 S.
Ct. 859, 863 (2011) (per curiam) (holding that it is of no federal concern whether state law was
correctly applied). It is a fundamental precept of dual federalism that the states possess primary
authority for defining and enforcing the criminal law. See, e.g., Estelle v. McGuire, 502 U.S. 62,
67-68 (1991) (a federal habeas court cannot reexamine a state court’s interpretation and
application of state law); Walton v. Arizona, 497 U.S. 639, 653 (1990) (presuming that the state
court knew and correctly applied state law), overruled on other grounds by Ring v. Arizona, 536
U.S. 584 (2002).
In applying these standards on habeas review, this Court reviews the “last reasoned
decision” by the state court. Ylst v. Nunnemaker, 501 U.S. 797, 804 (1991); Jones v. Stinson,
229 F.3d 112, 118 (2d Cir. 2000). Where there is no reasoned decision of the state court
addressing the ground or grounds raised on the merits and no independent state grounds exist for
not addressing those grounds, this Court must decide the issues de novo on the record before it.
See Dolphy v. Mantello, 552 F.3d 236, 239-40 (2d Cir. 2009) (citing Spears v. Greiner, 459 F.3d
200, 203 (2d Cir. 2006)); cf. Wiggins v. Smith, 539 U.S. 510, 530-31 (2003) (applying a de novo
standard to a federal claim not reached by the state court). In so doing, the Court presumes that
the state court decided the claim on the merits and the decision rested on federal grounds. See
Coleman v. Thompson, 501 U.S. 722, 740 (1991); Harris v. Reed, 489 U.S. 255, 263 (1989); see

6

App. 7

Case 9:19-cv-00005-JKS Document 10 Filed 07/27/20 Page 7 of 15

also Jimenez v. Walker, 458 F.3d 130, 140 (2d Cir. 2006) (explaining the Harris-Coleman
interplay); Fama v. Comm’r of Corr. Servs., 235 F.3d 804, 810-11 (2d Cir. 2000) (same). This
Court gives the presumed decision of the state court the same AEDPA deference that it would
give a reasoned decision of the state court. Harrington v. Richter, 131 S. Ct. 770, 784-85 (2011)
(rejecting the argument that a summary disposition was not entitled to § 2254(d) deference);
Jimenez, 458 F.3d at 145-46. Under the AEDPA, the state court’s findings of fact are presumed
to be correct unless the petitioner rebuts this presumption by clear and convincing evidence. 28
U.S.C. § 2254(e)(1); Miller-El v. Cockrell, 537 U.S. 322, 340 (2003).
IV. DISCUSSION
A.

Timeliness
Respondent urges the Court to dismiss Parbhudial’s Petition as untimely.
The AEDPA provides:
(1) A 1-year period of limitation shall apply to an application for a writ of
habeas corpus by a person in custody pursuant to the judgment of a State court.
The limitation period shall run from the latest of—
(A) the date on which the judgment became final by the conclusion of
direct review or the expiration of the time for seeking such review;
(B) the date on which the impediment to filing an application created by
State action in violation of the Constitution or laws of the United States is
removed, if the applicant was prevented from filing by such State action;
(C) the date on which the constitutional right asserted was initially
recognized by the Supreme Court, if the right has been newly recognized by the
Supreme Court and made retroactively applicable to cases on collateral review; or
(D) the date on which the factual predicate of the claim or claims
presented could have been discovered through the exercise of due diligence.
(2) The time during which a properly filed application for State postconviction or other collateral review with respect to the pertinent judgment or
claim is pending shall not be counted toward any period of limitation under this
subsection.

28 U.S.C. § 2244(d).

7

App. 8

Case 9:19-cv-00005-JKS Document 10 Filed 07/27/20 Page 8 of 15

Here, the New York Court of Appeals denied Parbhudial’s application for leave to appeal
his conviction on March 31, 2016. His conviction became final 90 days later, on June 29, 2016,
the conclusion of the period during which Parbhudial could have sought certiorari review in the
United States Supreme Court. See Williams v. Artuz, 237 F.3d 147, 150-51 (2d Cir. 2001). It
appears that he filed his CPL § 440.10 motion to vacate on April 20, 2017, after 294 days had
lapsed on the one-year limitations period. The limitations period was tolled from April 20, 2017,
until October 18, 2018, when the Appellate Division denied his application for leave to appeal.
28 U.S.C. § 2244(d)(1)(D)(2). Parbhudial therefore had 71 days to file his petition. The
counseled Petition was filed on January 2, 2019, 76 days later. Respondent thus urges the Court
to dismiss the Petition as untimely.
In response, Parbudial contends that equitable tolling should apply to render his Petition
timely. Parbhudial stresses that his Petition was filed only 5 days late. Parbhudial also argues
that he has been pursuing his rights diligently and that any delay is modest and attributable to
difficulties and delays in retaining new counsel and in receiving notification of his denied CPL
§ 440.10 motion from former counsel, whose letter also incorrectly noted the date that a federal
habeas petition would be due.
Here, however, this case may be more easily resolved on the merits, and thus the Court
declines to decide the case on procedural grounds. See Lambrix v. Singletary, 520 U.S. 518, 525
(1997) (stating that bypassing procedural questions to reach the merits of a habeas petition is
justified “if the [underlying issues] are easily resolvable against the habeas petitioner, whereas
the procedural bar issue involved complicated issues of state law”); Boddie v. New York State
Div. of Parole, 288 F. Supp. 2d 431, 439 (S.D.N.Y. 2003) (“[P]otentially complex and difficult

8

App. 9

Case 9:19-cv-00005-JKS Document 10 Filed 07/27/20 Page 9 of 15

issues about the various obstacles to reaching the merits [of a habeas petition] should not be
allowed to obscure the fact that the underlying claims are totally without merit.”) (quotation
omitted). Accordingly, the Court will address the merits of Parbhudial’s claims, as discussed
below.
B.

Merits
Parbhudial’s Petition alleges that trial counsel rendered ineffective assistance in a variety

of ways. To demonstrate ineffective assistance of counsel under Strickland v. Washington, a
defendant must show both that his counsel’s performance was deficient and that the deficient
performance prejudiced his defense. 466 U.S. 668, 687 (1984). A deficient performance is one
in which “counsel made errors so serious that counsel was not functioning as the ‘counsel’
guaranteed by the Sixth Amendment.” Id. The Supreme Court has explained that, if there is a
reasonable probability that the outcome might have been different as a result of a legal error, the
defendant has established prejudice and is entitled to relief. Lafler v. Cooper, 132 S. Ct. 1376,
1385-86 (2012); Glover v. United States, 531 U.S. 198, 203-04 (2001); Williams, 529 U.S. at
393-95. Thus, Parbhudial must show that his counsel’s representation was not within the range
of competence demanded of attorneys in criminal cases, and that there is a reasonable probability
that, but for counsel’s ineffectiveness, the result would have been different. See Hill v. Lockhart,
474 U.S. 52, 57 (1985). An ineffective assistance of counsel claim should be denied if the
petitioner fails to make a sufficient showing under either of the Strickland prongs. See
Strickland, 466 U.S. at 697 (courts may consider either prong of the test first and need not
address both prongs if the defendant fails on one).

9

App. 10

Case 9:19-cv-00005-JKS Document 10 Filed 07/27/20 Page 10 of 15

New York’s test for ineffective assistance of counsel under the state constitution differs
slightly from the federal Strickland standard. “The first prong of the New York test is the same
as the federal test; a defendant must show that his attorney’s performance fell below an objective
standard of reasonableness.” Rosario v. Ercole, 601 F.3d 118, 123 (2d Cir. 2010) (citing People
v. Turner, 840 N.E.2d 123 (N.Y. 2005)). The difference is in the second prong. Under the New
York test, the court need not find that counsel’s inadequate efforts resulted in a reasonable
probability that, but for counsel’s error, the outcome would have been different. “Instead, the
‘question is whether the attorney’s conduct constituted egregious and prejudicial error such that
the defendant did not receive a fair trial.’” Id. at 123 (quoting People v. Benevento, 697 N.E.2d
584, 588 (N.Y. 1998)). “Thus, under New York law the focus of the inquiry is ultimately
whether the error affected the ‘fairness of the process as a whole.’” Id. (quoting Benevento, 697
N.E.2d at 588). “The efficacy of the attorney’s efforts is assessed by looking at the totality of
the circumstances and the law at the time of the case and asking whether there was ‘meaningful
representation.’” Id. (quoting People v. Baldi, 429 N.E.2d 400, 405 (N.Y. 1981)).
The New York Court of Appeals views the New York constitutional standard as being
somewhat more favorable to defendants than the federal Strickland standard. Turner, 840
N.E.2d at 126. “To meet the New York standard, a defendant need not demonstrate that the
outcome of the case would have been different but for counsel’s errors; a defendant need only
demonstrate that he was deprived of a fair trial overall.” Rosario, 601 F.3d at 124 (citing People
v. Caban, 833 N.E.2d 213, 222 (N.Y. 2005)). The Second Circuit has recognized that the New
York “meaningful representation” standard is not contrary to the federal Strickland standard. Id.
at 124, 126. The Second Circuit has likewise instructed that federal courts should, like the New

10

App. 11

Case 9:19-cv-00005-JKS Document 10 Filed 07/27/20 Page 11 of 15

York courts, view the New York standard as being more favorable or generous to defendants
than the federal standard. Id. at 125.
Parbhudial’s ineffective assistance claims must fail, however, even under the more
favorable New York standard. With respect to his claim that counsel was ineffective for failing
to call Nikita and Omawattie Parbhudial to testify, the decision of which witnesses, if any, to call
at trial is the type of sound trial strategy that cannot be the basis for an ineffective assistance of
counsel claim. See Untied States v. Smith, 198 F.3d 377, 386 (2d Cir. 1999) (“The decision
whether to call any witnesses on behalf of the defendant, and if so which witnesses to call, is a
tactical decision of the sort engaged in by defense attorneys in almost every trial.”); United
States v. Schmidt, 105 F.3d 82, 90 (2d Cir. 1997) (defense counsel’s decision whether “to call
specific witnesses—even ones that might offer exculpatory evidence—is ordinarily not viewed
as a lapse in professional representation”).
Parbhudial counters that counsel’s failure to call Parbhudial’s ex-wife and mother at trial
cannot be deemed a strategic decision because they were not implicated in the Ramgoolam
murder. However, he fails to show that he was prejudiced by the omission, or that a different
result would have been achieved had they been called, because neither witness testified that they
saw Parbhudial at the exact time the shooting happened. Notably, the record shows that postconviction counsel abandoned the claim as to Parbhudial’s mother, and thus that claim is not
properly before the Court.2

2

The record indicates that, during the evidentiary hearing on Parbhudial’s § 440.10
motion, post-conviction counsel explicitly withdrew the testimony of Parbhudial’s mother from
the hearing transcript and stated that they were no longer presenting that claim. See Docket No.
6-1 at 392-393 (“We will continue to go forward on the other grounds of that claim including the
failure to call Nikita Parbhudial, as well as other grounds set forth in that motion, but we will not
11

App. 12

Case 9:19-cv-00005-JKS Document 10 Filed 07/27/20 Page 12 of 15

Moreover, there were problems with the ex-wife’s potential testimony. She stated by
affidavit that she was with Parbhudial watching TV in his second-floor bedroom when she heard
a loud bang and lot of screaming, which made it difficult to hear what anyone was saying, and
she did not hear the word “police.” Parbhudial stated, “I think it might be the people breaking
in,” before taking his shotgun and telling her to lock the door behind him. The ex-wife stated
that, while she heard it, she “didn’t see the gunshot go off.” Docket No. 6-1 at 137. Although
Parbhudial did not testify himself at trial, his version of events that corroborated with the exwife’s affidavit was introduced at trial through statements he had given to law enforcement after
his arrest as well as his videotaped interview that was played for the jury. While it might have
been marginally helpful to Parbhudial if the ex-wife’s statement was heard, ultimately, it is not
reasonably likely that the jury would have credited Parbhudial’s version of events in light of it.
In any event, at the evidentiary hearing, the ex-wife testified that she was watching TV
alone in the second-floor bedroom when she heard the bang that she would later find out was the
police entering the Parbhudial residence. She testified that Baliraj was the one that stated that
“people might be coming in” and that then “Adrian came and took his gun and told me to lock
the door behind him.” Docket No. 6-1 at 355. While she had at some point seen Parbhudial
playing video games in the second floor living room, she was not with him when the police
entered. Her testimony at the §440 hearing thus contradicted Parbhudial’s statement on that
point and left open the possibility that Parbhudial was not on the second floor as he claimed but
rather was the person officers testified they saw on the third floor attic, watching them as they
prepared to enter. Because the ex-wife’s testimony could actually have been quite damaging to

be pressing that claim based on Omawattie Parbhudial.”).
12

App. 13

Case 9:19-cv-00005-JKS Document 10 Filed 07/27/20 Page 13 of 15

Parbhudial’s defense, Parbhudial fails to show that he was prejudiced by the omission of her
testimony and thus fails to demonstrate that the state courts’ rejection of his claim was anything
but reasonable.
Nor can he show that counsel was ineffective for failing to request a continuance until
after Parbhudial’s family members were prosecuted and available to testify at trial. Importantly,
trial counsel articulated a rational tactical decision for avoiding testimony from family members
who had been implicated in the Ramgoolam murder. Moreover, as the county court recognized,
even if Parbhudial’s trial had taken place after the family members had pled guilty, those
members would still have been able to invoke their Fifth Amendment rights against selfincrimination during the pendency of any appeal. See People v. Cantave, 993 N.E.2d 1257, 1260
(N.Y. 2013). The state courts’ rejection of this claim was thus both reasonable and fully
supported by the record.
The county court also reasonably rejected Parbhudial’s claim that trial counsel was
ineffective for failing to object to the trial court’s omission of a justification charge. As the
county court explained:
Since there was no reasonable view of the evidence that the officers were
burglarizing [Parbhudial’s[ home or that they were trying to kill [Parbhudial] or members
of his family, the trial court was correct in not reading the justification charge for counts
1 and 3 of the indictment. Therefore, [Parbhudial] wasn’t entitled to a justification
charge with regard to counts 1 and 3, and defense counsel was not ineffective for failing
to object to the trial court’s failure.
As to Parbhudial’s claim that counsel was ineffective for failing to object to the joinder
of the indictments, he fails to show that such objection would have been successful. As the
Appellate Division explained in rejecting on direct appeal Parbhudial’s contention that the
claims were erroneously enjoined:
13

App. 14

Case 9:19-cv-00005-JKS Document 10 Filed 07/27/20 Page 14 of 15

Proof of the Ramgoolam murder by [Parbhudial’s] family members was a
necessary element of the hindering prosecution in the first degree charge, as well as the
alleged perjury and sworn false statement charges. [Parbhudial’s] knowledge of such
crime and its connection to individuals living in his home were also relevant to and
admissible in the People’s case on the attempted aggravated murder charge to prove
intent, motive and the lack of mistake; in fact, the central defense was that defendant did
not know it was police entering his house and he mistakenly shot them believing they
were intruders. Under the circumstances, the offenses were properly joined under CPL
200.20(2)(b) and, accordingly, County Court did not err in denying severance.
Parbhudial, 22 N.Y.S.3d at 651 (citations omitted).
Finally, Parbhudial fails to show that counsel was ineffective for failing to object to the
prosecutor’s opening and closing statements and certain lines of questioning. An independent
review of the record supports the county court’s conclusion that “there is no reason to believe
that the objections cited by [Parbhudial] would have been sustained by the court or that cross
examination would have elicited the answers that [Parbhudial] suggests.” In sum, for the
foregoing reasons, Parbhudial is not entitled to relief on any argument advanced in support of his
ineffective assistance claim.
V. CONCLUSION
Parbhudial is not entitled to relief on any ground raised in his Petition.
IT IS THEREFORE ORDERED THAT the Petition under 28 U.S.C. § 2254 for a Writ
of Habeas Corpus is DENIED.
IT IS FURTHER ORDERED THAT the Court declines to issue a Certificate of
Appealability. 28 U.S.C. § 2253(c); Banks v. Dretke, 540 U.S. 668, 705 (2004) (“To obtain a
certificate of appealability, a prisoner must ‘demonstrat[e] that jurists of reason could disagree
with the district court’s resolution of his constitutional claims or that jurists could conclude the
issues presented are adequate to deserve encouragement to proceed further.’” (quoting Miller-El,

14

App. 15

Case 9:19-cv-00005-JKS Document 10 Filed 07/27/20 Page 15 of 15

537 U.S. at 327)). Any further request for a Certificate of Appealability must be addressed to the
Court of Appeals. See FED. R. APP. P. 22(b); 2D CIR. R. 22.1.
The Clerk of the Court is to enter judgment accordingly.
Dated: July 27, 2020.
/s/ James K. Singleton, Jr.
JAMES K. SINGLETON, JR.
Senior United States District Judge

15

App. 16

